                           CLOSEOUT FOR M97070022

        OIG received an allegation from an NSF program director,' regarding possible
misconduct by an NSF-supported PI (the subject?). The complainad alleged that the
subject failed to give credit in his published articles for certain ideas that the complainant
presented in articles or orally at scientific conferences. In addition, the complainant
alleged that the subject deprived the complainant of credit for certain ideas by making
changes in the proofs of two papers after the journal's referees had completed their
review of the subject's manuscripts.

         OIG analyzed the documents sent by the complainant and concluded that the
allegation of failure to credit the complainant's ideas did not have substance. The
complainant acknowledged that the subject published certain papers at issue many years
after the complainant presented similar ideas in articles or at conferences. In two
instances, a period of 12-13 years elapsed between publication of the complainant's and
the subject's articles. Individuals can have many inputs to their ideas during long time
lags such as those in this case, making it impossible to determine whether the
complainant's ideas were the source of similar ideas set forth in the subject's later
publications. Moreover, while citation of earlier, relevant source articles is the best
practice, authors have considerable discretion in choosing citations and in the wording of
text referring to cited articles.

         Indeed, the subject's articles cite the complainant's article, but the complainant
objects to the implication in the text of one of the subject's publications4 that the
complainant drew on the subject's earlier work in formulating the analysis published by
the complainant. During the review process the subject had offered to include a reference
to the complainant's work,* acknowledging the complainant's priority with regard to
certain aspects of the concepts at issue, during an exchange that took place -before
publication of the subject's article. However, when actually published, the textual
reference to the complainant's work had apparently been altered to state that the
complainant had suggested and published those concepts after receiving the subject's
earlier, related publication,6 which the subject alleged had also been altered in proof.
While the subject's wording regarding the origin of the complainant's ideas may be
impolite or even incorrect, we believe it is indicative of a scientific disagreement over the
origin and relation of certain ideas, rather than misconduct in science. Moreover, in this
case the question of the propriety of the small additions or changes in words when the




                                   Page 1 of 2                               M97-22
                               -            -- - - - - .   - --   .   -   -




                         CLOSEOUT FOR M97070022

manuscripts were in proof, is a question best addressed by the editors. Accordingly, this
case is closed and no further action will be taken.

cc:    Integrity, IG




                                   Page 2 of 2
